BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1009
DAVID SHINN, ET AL.,

Petitioners,
V.

DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of Federal Defender Capital
Habeas Units as Amici Curiae in Support of
Respondents contains 3,566 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
: Suite l 02
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Ohio
M11 Commi88ion Expires
February 14 ?023

